Review of Section 1915(c) Mental Retardation or Related Condition Waiver
Services at Dungarvin Minnesota From July 1, 2004, Through June 30, 2005
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Section 1915(c)
Mental Retardation or Related Condition Waiver Services at Dungarvin Minnesota
From July 1, 2004, Through June 30, 2005," (A-05-07-00023)
January 10, 2008
Complete
Text of Report is available in PDF format (2.29 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agencys
claim for Medicaid reimbursement of home and community-based services (HCBS)
provided by Dungarvin during State fiscal year (SFY) 2005 complied with Federal
and State requirements.  Of the 100 sampled beneficiary-months reviewed, the
State agency claimed Medicaid reimbursement for services from 15
beneficiary-months that were unallowable because Dungarvin or Hennepin County
did not adequately document the services in accordance with Federal or State
requirements.
We
recommended the State agency:  (1) refund $301,001 to the Federal Government,
(2)
require the Hennepin County office to strengthen its internal controls to ensure
that it maintains individual service plans (ISPs) in accordance with Federal and
State requirements and provides current ISP to Dungarvin, and (3) require Dungarvin to strengthen its internal controls to ensure it maintains ISPs, which
includes the plans of care, in accordance with Federal and State requirements
and documents and claims reimbursement for MRRC waiver services actually
provided in accordance with Federal and State requirements.  The State agency
did not address our first recommendation but agreed with the two other recommendations.